No. ________
In the

Supreme Court of the United States
TECHNOLOGY PROPERTIES LIMITED LLC, PHOENIX DIGITAL SOLUTIONS LLC,
and PATRIOT SCIENTIFIC CORPORATION,
Applicants,

v.

HUAWEI TECHNOLOGIES CO., LTD., FUTUREWEI TECHNOLOGIES, INC., HUAWEI
DEVICE CO., LTD., HUAWEI DEVICE USA INC., HUAWEI TECHNOLOGIES USA INC.,
ZTE CORPORATION, ZTE USA, INC., SAMSUNG ELECTRONICS CO., LTD.,
SAMSUNG ELECTRONICS AMERICA, INC., LG ELECTRONICS, INC., LG ELECTRONICS
U.S.A., INC., NINTENDO CO., LTD., and NINTENDO OF AMERICA, INC.,
Respondents.
APPLICATION FOR AN EXTENSION OF TIME TO FILE A
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT
DIRECTED TO THE HONORABLE JOHN G. ROBERTS, JR.,
CHIEF JUSTICE OF THE UNITED STATES AND CIRCUIT JUSTICE FOR THE
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT
Kenneth W. Starr
THE LANIER LAW FIRM
10940 W. Sam Houston Pkwy. N.,
Suite 100
Houston, Texas 77064
(713) 659-5200
ken.starr@lanierlawfirm.com

Denise M. De Mory
Counsel of Record
Aaron R. Hand
BUNSOW DE MORY LLP
701 El Camino Real
Redwood City, CA 94063
(650) 351-7248
ddemory@bdiplaw.com
ahand@bdiplaw.com

Counsel for Applicants,
TECHNOLOGY PROPERTIES LIMITED LLC, PHOENIX DIGITAL SOLUTIONS LLC,
and PATRIOT SCIENTIFIC CORPORATION

To the Honorable John G. Roberts, Jr., Chief Justice of the United States and
Circuit Justice for the United States Court of Appeals for the Federal Circuit:
1.

Pursuant to Supreme Court Rules 13.5, 22, and 30, Applicants

Technology Properties Limited LLC, Phoenix Digital Solutions LLC, and Patriot
Scientific Corporation respectfully request an extension of sixty (60) days to file a
petition for a writ of certiorari in this Court, to and including September 7, 2019.
2.

Counsel for Applicants contacted Counsel for Respondents regarding

this application. Respondents do not object to Applicants’ requested extension.
3.

The United States Court of Appeals for the Federal Circuit entered

judgment on February 6, 2019. See 3a-5a. Applicants filed a timely petition for
rehearing en banc, which was denied on April 10, 2019. See 1a-2a. Without an
extension, the petition for a writ of certiorari is due on July 9, 2019. Pursuant to
Supreme Court Rule 13.5, this application is being filed more than 10 days before
that date. The jurisdiction of this Court will be invoked under 28 U.S.C. § 1254.
4.

This case presents important issues relating to the propriety of Federal

Circuit jurisprudence that authorizes district courts, during claim construction
proceedings, to add limitations to patent claims that were duly issued by the United
States Patent and Trademark Office. In this patent infringement action, at the
Defendants’ urging, the district court added two negative limitations to the issued
patent claims during claim construction, thereby significantly diminishing claim
scope in contravention of this Court’s authority under Goodyear Dental Vulcanite
Co. v. Davis, 102 U.S. 222 (1880). The district court added the two negative
limitations even though the statements that gave rise to the alleged “prosecution
1

disclaimer” were not germane to the Patent Office’s patentability determination.
On appeal, the Federal Circuit modified the negative limitations imposed by the
district court and remanded. See Tech. Properties Ltd. v. Huawei Techs. Co., Ltd.,
849 F.3d 1349 (Fed. Cir. 2017) (12a-28a). On remand, the accused infringers moved
for and were granted summary judgment of non-infringement based on the added
limitations as further interpreted by the district court. See 6a-11a. That decision
was affirmed without opinion under Fed. Cir. R. 36 in the instant appeal. See
3a-5a.
5.

This case presents important questions of constitutional and patent

law. The law of prosecution disclaimer, as applied in this case and in other cases,
has morphed in a manner inconsistent with the Patent Act. The Federal Circuit’s
increasingly anti-textualist methodology also conflicts with this Court’s longestablished precedent. The improper expansion of this judicially-created doctrine
upsets the balance between the role of the Patent Office and the role of the
judiciary, as established by Congress, and injects great uncertainty into the publicnotice function of patents. Congress delegated the examination and issuance of
patents to the Patent Office and requires deference to the agency’s decision-making.
The expanded disclaimer doctrine calls into question the Patent Office’s authority to
examine and issue patents, and the limited role of the judiciary in reviewing the
Patent Office’s determinations. Encouraging litigants and courts to wade through
the back-and-forth between the Patent Office and a patent applicant to rewrite the
issued claims through imposition of additional limitations under the guise of “claim
construction” runs afoul of Congress’s delegation.
2

6.

Since the 1880’s, this Court’s precedent has consistently restricted

prosecution disclaimer to the amendment, cancellation, or surrender of patent
claims during prosecution. When an applicant narrows claims during prosecution,
the applicant disclaims the scope of the original claims; in such circumstances, the
applicant’s statements related to an amendment may shed light on the scope of the
disclaimer. But an applicant’s other statements in the examination process that are
untethered to claim amendments should not be used to find disclaimer. That is
what this Court held in Goodyear Dental Vulcanite Co. v. Davis: “We do not mean to
be understood as asserting that any correspondence between the applicant for a
patent and the Commissioner of Patents can be allowed to enlarge, diminish, or
vary the language of a patent afterwards issued.” 102 U.S. 222, 227 (1880). The
Federal Circuit quoted this language in its seminal en banc opinion on claim
construction, Markman v. Westview Instruments, Inc., 52 F.3d 967, 980 (Fed. Cir.
1995).
7.

Over the past two decades, however, district courts and panels of the

Court of Appeals for the Federal Circuit have eroded this directive, relying on all
manner of statements in the prosecution history to limit claim scope and rewrite
claims. This is the wrong approach. It introduces uncertainty into the scope of the
patent grant and undermines the public-notice function of patent claims.
8.

In the instant case, the Patent Office had already been asked to

reconsider its decision to issue the asserted patent six times. Each time, the
asserted patent emerged from reexamination with the same limitations approved by
the Patent Office challenged in the lower court. Indeed, the same patent was
3

asserted and tried to a verdict of infringement, without application of prosecution
history disclaimer, in a prior infringement action concerning similar accused
devices. See HTC Corp. v. Tech. Properties Ltd., No. 5:08-cv-882, 2014 WL 549710
(N.D. Cal. Jan. 21, 2014).
9.

The expanded disclaimer doctrine leads to widely divergent results in

the district courts and between panels of the Court of Appeals for the Federal
Circuit. The unpredictability of the doctrine creates, rather than clarifies,
uncertainty regarding the boundaries of what should be well-settled property rights.
The result in this case undermines the very rationale underlying the disclaimer
doctrine, and evidences the extent to which the doctrine has led to highly
unpredictable and manifestly unjust results.
10.

For the aforementioned reasons, this case is a strong candidate for

certiorari review. The Court of Appeals’ ruling disregards both its own precedent
and this Court’s holding in Goodyear Dental, and presents an excellent opportunity
for this Court to affirm that precedent against the wrong and harmful expansion of
the disclaimer doctrine.
11.

This case presents recurring and important questions of patent law.

Additional time will allow for the preparation of a petition that fully addresses the
complex and important issues raised by this case, and frame those issues in a
manner that will be most helpful to the Court.
12.

In addition, the Applicants recently retained Kenneth W. Starr, Of

Counsel with The Lanier Law Firm, who was not involved in the proceedings below,
to assist in the preparation and filing of their petition for a writ of certiorari. The
4

extension of time is necessary to allow sufficient time for Judge Starr to familiarize
himself with the voluminous record, related technical matters, relevant statutes,
and case law and their application to the important constitutional matters raised by
the proceedings below.
13.

WHEREFORE, for the foregoing reasons, Applicants respectfully

request than an order be entered extending the Applicants' time to file a petition for
a writ of certiorari for 60 days, to and including September 7, 2019.

Respectfully Submitted,

Dated: June 27, 2019
Denise M. De Mory
Counsel of Recor
Aaron R. Hand
BUNSOW DE MORY LLP
701 El Camino Real
Redwood City, CA 94063
(650) 351-7248
ddemory@bdiplaw.com
ahand@bdiplaw.com
Kenneth W. Starr
THE LANIER LAW FIRM
10940 W. Sam Houston Pkwy. N., Suite 100
Houston, TX 77064
(713) 659-5200
ken.starr@lanierlawfirm.com
Counsel for Applicants,
TECHNOLOGY PROPERTIES LIMITED LLC,
PHOENIX DIGITAL SOLUTIONS LLC, and
PATRIOT SCIENTIFIC CORPORATION

5

Corporate Disclosure Statement

Technology Properties Limited LLC has no parent corporations and no publicly
held companies own 10% or more of stock in the party.
Patriot Scientific Corporation is a publicly held company. No parent
corporations or publicly held companies own 10% or more of stock in the party.
More than 10% of the membership interest in Phoenix Digital Solutions LLC is
held by Patriot Scientific Corporation, a publicly traded company.

6

ADDENDUM

Order denying petition for rehearing en banc in Technology Properties Ltd. v.
Huawei Techs. Co., Ltd. (No. 2018-1439) (Fed. Cir. Apr. 10, 2019) ........................... 1a
Judgment under Fed. Cir. Rule 36 in Technology Properties Ltd. v. Huawei Techs.
Co., Ltd. (No. 2018-1439) (Fed. Cir. Feb. 6, 2019) ...................................................... 3a
Order granting defendants’ motions for summary judgment of non-infringement
in Technology Properties Ltd. v. Huawei Techs. Co., Ltd. (No. 3:12-cv-3865)
(N.D. Cal. Dec. 13, 2017) ............................................................................................. 6a
Order re-construing claims and remanding in Technology Properties Ltd. v. Huawei
Techs. Co., Ltd., 849 F.3d 1349 (No. 2016-1306) (Fed. Cir. Mar. 3, 2017) .............. 12a

7

